     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103

November 5, 2009

Report Number: A-09-09-00078

Mr. Toby Douglas
Chief Deputy Director of Health Care Programs
California Department of Health Care Services
1501 Capitol Avenue, MS 0002
Sacramento, California 95814

Dear Mr. Douglas:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Medicaid Credit Balances at Tri-City Medical
Center as of February 28, 2009.” We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact Doug
Preussler, Audit Manager, at (415) 437-8360 or through email at Doug.Preussler@oig.hhs.gov,
or contact Anthony Rocha, Senior Auditor, at (916) 498-6641, extension 223, or through email at
Anthony.Rocha@oig.hhs.gov. Please refer to report number A-09-09-00078 in all
correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Toby Douglas


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




          REVIEW OF
 MEDICAID CREDIT BALANCES
 AT TRI-CITY MEDICAL CENTER
   AS OF FEBRUARY 28, 2009




                       Daniel R. Levinson
                        Inspector General

                        November 2009
                        A-09-09-00078
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In California, the Department of Health Care
Services (the State agency) administers Medicaid.

Credit balances may occur when the reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the program payment ceiling or allowable costs,
resulting in an overpayment. Credit balances may also occur when a provider receives payments
for the same services from the Medicaid program and another third-party payer. In such cases,
the provider should return the overpayment to the Medicaid program, which is the payer of last
resort.

Section 1903(d)(2)(C) of the Act, implemented at 42 CFR § 433.300(b), states: “. . . when an
overpayment is discovered . . . the State shall have a period of 60 days in which to recover or
attempt to recover such overpayment before adjustment is made in the Federal payment to such
State on account of such overpayment. . . . [T]he adjustment in the Federal payment shall be
made at the end of the 60 days, whether or not recovery was made.”

The State agency does not have any regulations requiring providers to refund Medicaid credit
balances within a specific timeframe. However, State Medicaid cost report instructions state that
it is the provider’s responsibility to maintain an effective system to prevent, detect in a timely
fashion, and take proper corrective action for Medicaid overpayments. In addition, providers
must report outstanding credit balances as part of their annual cost report submissions and refund
any overpayments when the State agency settles the cost reports.

Tri-City Medical Center (Tri-City) is a community owned and operated acute-care hospital
located in Oceanside, California. Tri-City reported that it was reimbursed by the State agency
approximately $20.3 million for Medicaid services during calendar year 2008.

OBJECTIVE

Our objective was to determine whether the Medicaid credit balances recorded in Tri-City’s
accounting records as of February 28, 2009, for inpatient and outpatient services represented
overpayments that Tri-City should have returned to the Medicaid program.




                                                i
SUMMARY OF FINDING

As of February 28, 2009, Tri-City’s Medicaid accounts with credit balances included
48 overpayments totaling $34,166 ($17,083 Federal share) that had not been returned to the
Medicaid program. For these accounts, the ages of the overpayments ranged from 1 day to over
730 days. Tri-City did not return the majority of overpayments to the State agency because
Tri-City lacked adequate policies and procedures to prevent, detect in a timely fashion, and take
proper corrective action for Medicaid overpayments.

RECOMMENDATIONS

We recommend that the State agency:

      refund to the Federal Government $17,083 (Federal share) in Medicaid overpayments to
       Tri-City and

      work with Tri-City to develop adequate policies and procedures to prevent, detect in a
       timely fashion, and take proper corrective action for Medicaid overpayments.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency agreed with our recommendations. The
State agency’s comments are included in their entirety as the Appendix.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program................................................................................................1
              Federal and State Requirements...........................................................................1
              Tri-City Medical Center.......................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope....................................................................................................................2
               Methodology ........................................................................................................3

FINDING AND RECOMMENDATIONS...............................................................................3

          OUTSTANDING CREDIT BALANCE ACCOUNTS WITH MEDICAID
           OVERPAYMENTS ......................................................................................................3

          RECOMMENDATIONS.................................................................................................4

          STATE AGENCY COMMENTS....................................................................................4

APPENDIX

          DEPARTMENT OF HEALTH CARE SERVICES COMMENTS




                                                                    iii
                                           INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In California, the Department of Health Care
Services (the State agency) administers Medicaid.

Credit balances may occur when the reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the program payment ceiling or allowable costs,
resulting in an overpayment. Credit balances may also occur when a provider receives payments
for the same services from the Medicaid program and another third-party payer. In such cases,
the provider should return the overpayment to the Medicaid program, which is the payer of last
resort.

Federal and State Requirements

Section 1903(d)(2)(C) of the Act, implemented at 42 CFR § 433.300(b), states: “. . . when an
overpayment is discovered . . . the State shall have a period of 60 days in which to recover or
attempt to recover such overpayment before adjustment is made in the Federal payment to such
State on account of such overpayment. . . . [T]he adjustment in the Federal payment shall be
made at the end of the 60 days, whether or not recovery was made.”

The State agency does not have any regulations requiring providers to refund Medicaid credit
balances within a specific timeframe. However, State Medicaid cost report instructions state that
it is the provider’s responsibility to maintain an effective system to prevent, detect in a timely
fashion, and take proper corrective action for Medicaid overpayments. In addition, providers
must report outstanding credit balances as part of their annual cost report submissions and refund
any overpayments when the State agency settles the cost reports.

Providers must submit their annual Medicaid cost reports within 150 days after the end of the
provider fiscal year. Pursuant to section 14170(a)(1) of the California Welfare and Institutions
Code, the State agency has 3 years after the provider’s fiscal year or the date of the submission,
whichever is later, to audit or review the cost report.




                                                 1
Tri-City Medical Center

Tri-City Medical Center (Tri-City) is a community owned and operated acute-care hospital
located in Oceanside, California. Tri-City reported that it was reimbursed by the State agency
approximately $20.3 million for Medicaid services during calendar year 2008.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Medicaid credit balances recorded in Tri-City’s
accounting records as of February 28, 2009, for inpatient and outpatient services represented
overpayments that Tri-City should have returned to the Medicaid program.

Scope

Tri-City’s inpatient and outpatient accounting records contained 169 Medicaid accounts with
credit balances totaling $175,678 as of February 28, 2009. Of these accounts with credit
balances, Tri-City identified 99 as overpayments due to Medicaid (totaling $44,780) and 70 as
credit balances not due to Medicaid (totaling $130,898):

       Of the 99 accounts with credit balances that Tri-City identified as overpayments due to
        Medicaid, we reviewed all 99.

       Of the 70 accounts with credit balances that Tri-City identified as credit balances not due
        to Medicaid, we reviewed a judgmental sample of 22 accounts with credit balances
        totaling $102,113. We did not review the remaining 48 accounts with credit balances
        totaling $28,785. Because our review confirmed that the 22 accounts with credit
        balances were not due to Medicaid, expanding our sample was unnecessary.

Our objective did not require an understanding or assessment of the complete internal control
system at Tri-City. We limited our review of internal controls to obtaining an understanding of
the policies and procedures that Tri-City used to review credit balances and report overpayments
to the State Medicaid program.

We performed our fieldwork at Tri-City’s facilities in Oceanside, California, from
March through August 2009.




                                                 2
Methodology

To accomplish our objective, we:

      reviewed Federal and State requirements pertaining to Medicaid credit balances and
       overpayments;

      reviewed Tri-City’s policies and procedures for reviewing credit balances and reporting
       overpayments to the State agency;

      traced Tri-City’s February 28, 2009, total credit balances to the accounts receivable
       records and traced the accounts receivable records to the balance sheet;

      identified Tri-City’s Medicaid credit balances from its accounting records and reconciled
       the Medicaid credit balances to Tri-City’s Medicaid credit balances report as of
       February 28, 2009;

      reviewed Tri-City’s accounting records for selected accounts with credit balances,
       including patient payment data, Medicaid claim forms and remittance advices, patient
       accounts receivable detail, and additional supporting documentation;

      calculated the Federal share of overpayments based on the Federal medical assistance
       percentage of 50 percent; and

      coordinated our audit with State agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

As of February 28, 2009, Tri-City’s Medicaid accounts with credit balances included
48 overpayments totaling $34,166 ($17,083 Federal share) that had not been returned to the
Medicaid program.

OUTSTANDING CREDIT BALANCE ACCOUNTS WITH MEDICAID
OVERPAYMENTS

As of February 28, 2009, Tri-City’s Medicaid accounts with credit balances included
48 overpayments totaling $34,166 ($17,083 Federal share) that had not been returned to the
Medicaid program. The ages of the 48 overpayments ranged from 1 day to over 730 days, as the
table on the following page summarizes.




                                                3
                        Ages of Overpayments as of February 28, 2009

                                                    Overpayment          Federal
              Days            No. of Accounts
                                                      Amount              Share
              1–60                   11                  $9,190              $4,595
              61–180                 15                  13,288               6,644
              181–365                11                   2,648               1,324
              366–730                 9                   1,581                 791
              > 730                   2                   7,459               3,729
              Total                  48                 $34,166             $17,083

Tri-City did not return the majority of overpayments to the State agency because Tri-City lacked
adequate policies and procedures to prevent, detect in a timely fashion, and take proper
corrective action for Medicaid overpayments.

RECOMMENDATIONS

We recommend that the State agency:

      refund to the Federal Government $17,083 (Federal share) in Medicaid overpayments to
       Tri-City and

      work with Tri-City to develop adequate policies and procedures to prevent, detect in a
       timely fashion, and take proper corrective action for Medicaid overpayments.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency agreed with our recommendations. The
State agency’s comments are included in their entirety as the Appendix.




                                                4
APPENDIX
                                                                                                                         Page 10f3


 APPENDIX: DEPARTMENT OF HEALTH CARE SERVICES COMMENTS 




                               State of California-Health and Human Services Agency
 ~HCS
                               Department of Health Care Services 

W

DAVID MAXWELl.JOLLY
      Director
                                                                                                       ARNOLDSCHWARZENEGGER
                                                                                                               Govemor



      OCT 05 Z009

       Ms. Lori A. Ahlstrand 

       Regional Inspector General for Audit Services 

       Office of Inspector General 

       90 ih Street, Suite 3-650 

       San Francisco, CA 94103 


        Dear Ms.. Ahlstrand:

       The California Department of Health Care Services (DHCS) has prepared its response
       to the U.S. Department of Health and Human Services, Office of Inspector General
       (OIG), draft report entitled "Review of Medicaid Credit Balances at Tri-City Medical
       Center as of February 28, 2009" (A-09-09-00078). DHCS appreciates the work
       performed by the OIG and the opportunity to respond to the draft report.

       Please contact Ms. Traci Walter, Audit Coordinator, at (916) 650-0298 if you have any
       questions.
                                  ./


       s~/
       Toby Douglas
       Chief Deputy Director
       Health Care Programs

       cc:       See next page




                      1501 Capitol Avenue, Suite 71.6001, MS 0002· P 0 . 997413· Sacramento, CA 95899-7413 

                                                (916) 440-7400 • (916) 440-7404 FAX 

                                                  Intemet address: www.dhcs.ca.gov 

                                                                                                Page 3 of3




                          Department of Health Care Services 

            Response to the Office of Inspector General's Draft Report Entitled 


                          Review of Medicaid Credit Balances at 

                      Tri-City Medical Center as of FebrualY 28, 2009 



Recommendation: We recommend that the State agency refund to the Federal Government
                $17,083 (Federal share) in Medicaid overpayments to Tri-City.

Response:            The Department of Health Care Services (DHCS) agrees with the
                     recommendation and will issue a demand letter to Tri-City Medical
                     Center to refund the amount of $34,166, An accounts receivable will be
                     established and the $17,083 will be returned to the Federal Government.


Recommendation: 	 We recommend that the State agency work with Tri-City to develop
                  adequate policies and procedures to prevent, detect in a timely fashion,
                  and take proper corrective action for Medicaid overpayments.

Response: 	          The DHCS Financial Audits Branch (FAB) conducts annuai Medi-Cai
                     cost report audits of all acute care facilities. These audits include steps
                     to review for credit balances. The audit of future cost reports for Tri-City
                     Medical Center will include a review for credit balances. FAB will work
                     with Tri-City during these audits to assure that adequate policies and
                     procedures are developed.
                                             Page 2 of3




Wis" Lori A Ahisirand
Page 2
OCT 0 5 2009


cc: 	   Ms, Karen Johnson
        Chief Deputy Director
        Policy and Program Support
        1501 Capitol Avenue, MS 0005
        P,O" Box 997413
        Sacramento, CA 95899-7413

        Ms. Jan Inglish
        Acting Deputy Director
        Audits and Investigations Division
        1501 Capitol Avenue, MS 2000
        P,O. Box 997413
        Sacramento, CA 95899-7413

        Mr. Bill Alameda, Chief
        Financial Audits Branch
        Audits and Investigations Division
        1501 Capitol Avenue, MS 2100
        P"O, Box 997413
        Sacramento, CA 95899-7413
